No. 21IN THE

Supreme Court of the United States
HASSAN SHARIF ALI,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Mark C. Fleming, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 4,704 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on September 27, 2021.

MARK C. FLEMING
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com

